No.20-527

In The Supreme Court of The United States
KEVIN M. GUSKIEWICZ,
IN HIS OFFICIAL CAPACITY AS CHANCELLOR OF THE UNIVERSITY OF
NORTH CAROLINA AT CHAPEL HILL, ET AL.,
V.
DTH MEDIA CORPORATION, ET AL.,

CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the document
contains 2,581 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on November 18th, 2020.

For:
Kip D. Nelson
Counsel of Record
Troy D. Shelton
FOX ROTHSCHILD LLP
434 Fayetteville Street
Suite 2800
Raleigh, NC 27601
(919) 755-8700

knelson@foxrothschild.com

Counsel for Amici Curiae

Karen R. Taylor
GibsonMoore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
karen@gibsonmoore.net

